Credit Card Agreement
This document together with the Account Opening Disclosure that was
either delivered with this agreement or with your card is an agreement (the
“Agreement”) between you, the cardmember, and CommunityAmerica Credit
Union. This Credit Card Agreement is for your credit card account with
CommunityAmerica Credit Union (the “Credit Union”), and the Card(s) which
has/have been given to you in connection with your Account. Such Account
and Card(s) provide you with credit card services. Your use of the Account or
any payment on the Account indicates your acceptance on the terms of this
Agreement. “You” and “your” mean any applicant for the Account, and any
person using the Account and/or related Card(s) with the expressed or implied
permission of any of the applicants. Any person whose name appears on
the Account for the Card(s) issued by the Credit Union under this Agreement
consents, either by using or permitting another to use the Card(s), to all
provisions of this Agreement. “We”, “us” and “our” means the Credit Union, our
successors and assigns.

Grace Period means the period of time during which you can avoid paying
Interest Charges on certain transactions or balances.

DEFINITIONS:

Promotional Rate is a rate other than the standard rate, tied to a special
offering.

Account means your credit card account.
Annual Fee means a fee charged on a yearly basis for your continued use of
the Account.
APR means Annual Percentage Rate.
ATM means Automated Teller Machine.
Average Daily Balance is determined by adding the outstanding balance for
each day in the billing cycle, and then dividing by the number of days in the
billing cycle.
Balance Transfer means an advance made when transferring a balance from
another creditor to your Account. You may not transfer a balance from another
loan account with us to this Account.
Business Days are Monday through Friday, excluding Federal holidays.
Card means the physical card(s), the Account number, or any device (such as a
Check) that can be used to access your Account.
Cash Advance means an advance made when you use your Card or Account
to: obtain cash from an ATM; obtain cash from any other source; make a wire
transfer; buy foreign currency; buy traveler’s checks; buy money orders; buy
lottery tickets; buy gambling chips and wagers; or cash a Convenience Check.
Check or Convenience Check means any check we send to you to access
your Account. We will tell you whether we will treat the Check as a Purchase,
Balance Transfer or Cash Advance. You may not use these Checks to pay any
amount you owe us. We have the right not to pay a Check for any reason.
Charges are costs imposed as part of this Agreement and include both Interest
Charges and Fees.
Daily Periodic Rate means a rate calculated from the applicable APR. The
daily periodic rate is equal to the applicable APR divided by 365.
Fees means non-interest charges, including transaction fees.
Foreign Transaction means any transaction made in a foreign currency, and
any transaction made in U.S. dollars if the transaction is made or processed
outside of the United States. Foreign transactions include, for example, online
purchases from foreign merchants. The card network that processes these
transactions will calculate a U.S. dollar amount for each such transaction
using its own currency conversion procedures. Each network uses either a
government mandated or wholesale rate in effect on the date that the network
processes the transaction, which may differ from the rate that the network itself
receives and which may be the least favorable rate the network identifies from
a reasonable range of customary sources. The rate in effect on the processing
date may not be the same as any rate in effect on the date that you made the
transaction or on the date that the transaction posts to your Account.

Interest Charges means the portion of Charges attributed to periodic interest
rates.
Introductory Rate means any Promotional Rate offered when you open your
Account.
Prime Rate means the U.S. Prime Rate published in the Wall Street Journal
in its column called “Money Rates” on the last Business Day of each month.
If more than one U.S. Prime Rate is published by the Wall Street Journal, we
may choose the highest of such rates to use in calculating your APR. If the Wall
Street Journal no longer publishes a prime rate, we will use a similar published
rate that we choose.
Promotional Balance means the balance subject to any Promotional Rate or
Introductory Rate.

Purchase means the use of your Card to buy or lease merchandise or services,
and does not include any type of Cash Advance. The purchase of cash or
cash equivalents, like casino chips or lottery tickets, is a cash advance, not a
purchase.
Statement means your billing statement.
Transaction Date means the date shown on your billing statement for a
transaction or fee.
PROMISE TO PAY: You agree to pay all authorized charges on the Statement,
including Interest Charges and Fees. To the extent permitted by applicable law,
you also promise to pay all costs and expenses, including reasonable attorney’s
fees that we incur in enforcing this Agreement.
CHANGE IN TERMS: We may change the terms of this Agreement, including
APRs and Fees, from time to time. We may also add new terms or delete terms.
If required by law we will give you advance written notice of the change(s) and
a right to reject the change(s). If you reject a change, your Account will be
cancelled and you will no longer be able to use the Account. Cancellation of
your Account will not affect your liability to us for credit we have extended to
you, including amounts not yet billed to your Account.
OUR COMMUNICATIONS WITH YOU: You agree that our personnel may
listen to or record phone calls between you and our representatives without
additional notice to you including calls we make to collect debts. We may use
any medium permitted by law, including mail, live telephone calls, automated
telephone equipment, pre-recorded telephone calls, e-mail, text messages and
calls to your cell phone (which may be at your expense) to contact you about
your Account or to offer you products or services that may be of value to you.
USING YOUR ACCOUNT: Your Account is a consumer Account, and is not for
business purposes. You agree not to use your Account for unlawful purposes
or transactions. It is not our responsibility to make sure that you use your
Account only for permissible transactions, and you will remain responsible for
paying a transaction even if is not permissible.
AUTHORIZED USERS: If you let anyone use your Account, that person is
an authorized user. You are responsible for any use of your Account by an
authorized user, even for transactions for which you may not have intended
to be liable. You must tell us if you want to stop an authorized user from using
your Account. You are responsible for getting any Cards, Checks or other means
of accessing your Account from the authorized user. We may share information
about the Account with authorized users.
JOINT ACCOUNT: If your Account is a joint Account, each of you agrees to be
liable individually and jointly for the entire amount owed on the Account, and

any notice we mail to an address provided by either of you for the Account will
serve as notice to both of you. This means that we can require any one of you
individually to repay the entire amount owed under this Agreement. Each of
you authorizes the other(s) to make purchases or cash advances individually.
Any one of you may terminate the Account and the termination will be effective
as to all of you.

repay while that balance is subject to a Grace Period. Subject to the Grace
Period, we will charge interest from the date new transactions appear on
your Account until paid in full. You cannot avoid paying interest on Balance
Transfers and Cash Advances. If you do not pay your New Balance in full
each month then, depending on the balance to which we apply your payment,
you may not get a Grace Period on new Purchases.

CREDIT LINES: We will post your current credit limit on your Statement, and
may cancel, change or restrict it or your credit availability at any time. We are
not obligated to allow your Account to go over its credit limit. You are responsible
for the total balance at all times, even if your Account balance exceeds your
credit limit. We may establish a lower credit line for Cash Advances.

FEES:

AUTHORIZATION OF TRANSACTIONS/CLOSING YOUR ACCOUNT: We are
not obligated to honor every transaction, and we may close or suspend your
Account at any time without notice. If we or you close your Account, you must
still pay all outstanding amounts on the Account. Interest will continue to
accrue on your unpaid balance. We may decline transactions for any reason,
including: operational matters, the account is in default, or suspected fraudulent
or unlawful activity. We are not responsible for any losses associated with a
declined transaction. If your Account is closed or your Card expires, you may
no longer use your Card and you must destroy it or return it to us upon request.

Late Payment Fee: If you do not pay at least the Minimum Payment Due
by the Payment Due Date, you will be charged a Late Fee of $25. If you are
late more than once in a six month period, the Late Fee will go up to $35. If
you make payments on time for six months, the Late Fee will return to $25.

INTEREST CHARGES:
Variable Rates: We calculate variable APRs by adding a margin to the
Prime Rate. The APR may increase or decrease each month if the Prime Rate
changes. We may increase or decrease the APR effective on the first billing
date after the cycle. If the APR increases, you will pay a higher Interest
Charge and may pay a higher minimum payment.
Interest Charge Calculation: New purchases posted to your account during
a billing cycle will not incur a interest charge for that billing cycle if you had
a zero or credit balance at the beginning of that billing cycle, or you paid the
entire new balance on the previous cycle’s billing statement by the payment
due date of that statement; otherwise an interest charge will accrue from
the date a purchase is posted to your account. To avoid an additional interest
charge on the balance of purchases, you must pay the entire new balance on
the billing statement by the payment due date of that statement. An interest
charge begins to accrue on cash advances from the date you get the cash
advance or from the first day of the billing cycle in which the cash advance is
posted to your account, whichever is later.
The interest charge is calculated separately for purchases and cash advances.
For purchases, the interest charge is computed by applying the periodic rate
to the average daily balance of purchases. To get the average daily balance
of purchases, we take the beginning outstanding balance of purchases each
day, add any new purchases, and subtract any payments and/or credits.
This gives us the daily balance of purchases. Then, we add all the daily
balances of purchases for the billing cycle together and divide the total by the
number of days in the billing cycle. This gives us the average daily balance
of purchases.
For cash advances, the interest charge is computed by applying the periodic
rate to the average daily balance of cash advances. To get the average daily
balance of cash advances, we take the beginning outstanding balance of cash
advances each day, add in any new cash advances, and subtract any payments
and/or credits that we apply to the cash advance balance. This gives us the
daily balance of cash advances. Then, we add all the daily balances of cash
advances for the billing cycle together and divide the total by the number
of days in the billing cycle. This gives us the average daily balance of cash
advances. Balance transfers are calculated in the same manner as cash
advances unless otherwise noted.
Termination of Introductory or Promotional Rates: If during an
Introductory or Promotional Rate period, we have not received the required
minimum monthly payment within 60 days of the respective payment due
date, we will increase the applicable APR to the standard non-promotional
APR. Introductory and/or Promotional Rates will not be reinstated.
Grace Period: We will not charge you interest on new Purchases if you
pay your full Account balance by the due date each month. Also, we will
not impose Interest Charges on any portion of a new Purchase balance you

Cash Advance Fee: See the Account Opening Disclosure.
Balance Transfer or Convenience Check Fee: See the Account Opening
Disclosure.

Stop Payment Fee: If a Convenience Check is dishonored or when a
payment of a Convenience Check is stopped at your request, you will be
charged a Stop Payment Fee of $25. If you are charged a Stop Payment
Fee more than once in a six month period, the Stop Payment Fee will go up
to $35. If you are not charged a Stop Payment Fee for six months, the Stop
Payment Fee will return to $25.
Foreign Transaction Fee: There is a fee for transactions that take place
outside of the United States, even if the currency used is U.S. Dollars. See
the Account Opening Disclosure for details.
Rush Card Fee: $35
Administrative Fees: If you request a copy of a Statement, sales draft or
other record of your Account (including Convenience Checks) or if you request
two or more Cards or any special services (for example, obtaining Cards on an
expedited basis), we may charge you for these services. We may also refer
to these fees as the copy fee and the Card replacement fee, respectively. In
addition, if our representative initiates an express payment at your request,
we may charge you a fee for this service. We may also refer to this fee as the
SpeedPay fee. However, we will not charge you for Statements, sales drafts,
or similar documents that you requested for a billing dispute you may assert
under applicable law. Other fees may apply for other services we provide
that we will inform you about at the time the service is offered.
AUTHORIZATION/REFUSAL TO AUTHORIZE TRANSACTIONS: We may
decline, at any time, at our sole discretion, an authorization request for any
transaction for any reason, including but not limited to:
• Operational considerations;
• Your Account is in default; and /or
• We suspect fraudulent or unlawful activity, including but not limited to
authorization requests from online gambling merchants, whether or not
online gambling is illegal in the state in which you reside.
We are not responsible for any losses or damages, including consequential
damages, if a transaction on your Account is declined, either by us or a third
party, even if you have sufficient credit available.
REFUSAL TO PAY CHECKS: Each Check you write drawn on your Account is
your request for funds. When we receive a Check for payment, we may review
your Account to decide whether to authorize that Check. We may, but are not
required to, reject and return a Check unpaid for any reason, including the
following examples:
• Your Account has not been activated.
• You have used the Check after the date specified on it.
• The Check is being used to pay on any outstanding payment or balance you
owe us.
• Your Credit Line has been exceeded, or would be exceeded if we paid the
Check.
• The Check does not bear an authorized signer’s signature on file with us.
• The Check is post-dated. If a post-dated Check is paid, resulting in another
item being returned or not paid, we are not responsible.

• Your account is in default, or would be if we paid the Check.

applied in satisfaction of future Minimum Required Payments.

RETURNS AND ADJUSTMENTS: Merchants and others who honor your Card
may give credit for returns or adjustments, and they will do so be sending us
a credit which will be posted to your Account. If your credits and payments
exceed what you owe us, the amount will be applied against future Purchases
and Cash Advances. You may request a refund of credit balances at any time.
If you don’t request a refund, we will apply credit balances to new transactions
unless a refund is required by law.

EFFECT OF AGREEMENT: This Agreement is the contract which applies to all
transactions on your Account even though the sales, cash advances, credit or
other slips you sign may contain different terms. We may amend this Agreement
from time to time by sending you the advance written notice required by law.
To the extent the law permits, and unless we indicate otherwise in our notice,
amendments will apply to your existing Account balances as well as to future
transactions. This Card may also be tied to benefits associated with deposit
accounts, as outlined in your deposit account agreement.

DEFAULT: Your Account will be in default if:
• we do not receive a required payment when due, including the minimum
payment by the date shown on your Statement;
• you exceed your credit limit;
• you fail to comply with the terms of this Agreement;
• you make any false or misleading statements or omissions on your
application;
• you file a bankruptcy petition or have one filed against you;
• we obtain information that causes us to believe that you may be unwilling or
unable to pay your debts to us or to others on time including, but not limited
to, your failure to make any payment to us on any other indebtedness or loan;
or
• you become incapacitated or die.

OTHER PROVISIONS:
• Each Account you have with us is separate from any others you have with
us, and Interest Charges will be charged on each Account’s balance at the
APR given with each Account Opening Disclosures. Each individual Account
will have its own Account number.
Your Card(s) are the property of CommunityAmerica Credit Union.
• CommunityAmerica Credit Union may share your Account experience
and transaction information with its affiliates, which are members of
the CommunityAmerica family of companies as defined in your Privacy
Statement. Please refer to your Privacy Statement for your options on
limiting sharing.
• Collateral securing other loans with us may also secure this indebtedness.
• You agree to notify us immediately if you change your address.

PAYMENTS
Payment Due Date: Payments are due on the payment due date shown on
your monthly Statement. Your payment must be received by 5:00 p.m. in
order to be considered received as of that date. Payments received after that
time will be credited on the next Business Day.
Payment Instructions: You must follow the payment instruction on your
Statement. You must pay in U.S. dollars, without restrictive terms. We may
accept checks marked “Payment in Full” or with words of similar effect
without losing any of our rights to collect the full balance of your Account.
Minimum Payment: You agree to pay at least the minimum payment
when due as shown on your billing statement. You may pay more than the
minimum payment due and may pay the full amount you owe us at any time.
If you have a balance that is subject to Interest Charges, the sooner you make
your payment, the less you will pay because Interest Charges accrue on your
balance each day.
The Minimum Payment is calculated as the greater of:
• $25.00 or the full amount of your total balance if it is less than $25.00; or
• 2.5% of the new balance plus any Fees, Interest Charges, amounts over
your Credit Line, and/or past due amounts. The payment amount is
rounded to the nearest dollar.
Payment Allocation: We will allocate your minimum payment in the
manner we determine. We will apply the amount in excess of the minimum
payment to balances with higher APRs before balances with lower APRs.
LOST OR STOLEN CARDS: You agree to notify us immediately, verbally or in
writing at 1.800.892.7957, (after hours call 1.877.661.4920), or PO Box 15950,
Lenexa, Kansas 66285-5950 if any Card, Check, Account number or other
means to access your Account is lost, stolen or used without your permission.
GOVERNING LAW: The terms and enforcement of this Agreement and your
Account shall be governed and interpreted in accordance with federal law and, to
the extent state law applies, the laws of the State of Missouri. Fees are governed
by section 408.145 RsMo. If any part of this Agreement is unenforceable, this
will not make any other part of this Agreement unenforceable.
DELAYED ENFORCEMENT: Our failure to exercise any of our rights when your
Account is in default does not mean that we are unable to exercise those rights
upon later default. We will not lose any of our rights under this Agreement if
we delay taking action for any reason. We may accept late or partial payments,
as well as payments marked “Payment in Full” or with other restrictive
endorsements without losing any of our rights under this Agreement. Any
payment amount in excess of the Minimum Required Payment will not be

ARBITRATION OF DISPUTES – AGREEMENT TO ARBITRATE: In the event of
any past, present or future claim or dispute (whether based upon contract, tort,
statute of the United States or any state, common law or equity) between you
and us arising from or relating to your Account, any prior account you have had
with us, your applications, the relationships which result from your Account
or the enforceability or scope of this arbitration provision, of the Agreement or
of any prior agreement, you or we may elect to resolve the claim or dispute by
binding arbitration. All disputes over the arbitrability of specific issues shall be
solved by the arbitrator. Judgment upon the arbitration award may be entered
in any court of competent jurisdiction.
EXCEPT FOR THE LIMITED INSTANCES SET FORTH BELOW, IF EITHER YOU
OR WE ELECT ARBITRATION, NEITHER YOU NOR WE SHALL HAVE THE RIGHT
TO LITIGATE THAT CLAIM IN COURT OR TO HAVE A JURY TRIAL ON THAT
CLAIM. PRE-HEARING DISCOVERY RIGHTS AND POST-HEARING APPEAL
RIGHTS WILL BE LIMITED. NEITHER YOU NOR WE SHALL BE ENTITLED TO
JOIN OR CONSOLIDATE CLAIMS IN ARBITRATION BY OR AGAINST OTHER
CARDMEMBERS WITH RESPECT TO OTHER ACCOUNTS, OR LITIGATE IN
COURT OR ARBITRATE ANY CLAIMS AS A REPRESENTATIVE OR MEMBER
OF A CLASS OR IN A PRIVATE ATTORNEY GENERAL CAPACITY (“Class Action
Waiver”).
Notwithstanding anything else to the contrary in this arbitration provision, only
a court, and not an arbitrator, shall determine the validity and effect of the
Class Action Waiver. Even if all parties have opted to litigate a claim in court,
you or we may elect arbitration with respect to any claim made by a new party
or any new claims later asserted in that lawsuit and nothing undertaken therein
shall constitute a waiver of any rights under this arbitration provision. We will
not invoke our right to arbitrate an individual claim you bring in small claims
court or your state’s equivalent court, if any, unless such action is transferred,
removed or appealed to a different court. Nothing contained herein shall limit
our right to foreclose against or sell any collateral, whether real or personal, to
exercise any right of setoff, or to obtain provisional or ancillary remedies from
a court of competent jurisdiction before, during or after arbitration, including,
but not limited to, our right to bring a legal proceeding against you in state or
federal court to collect a debt owed by you. The exercise of rights granted under
this paragraph shall not be deemed a waiver of the right to compel arbitration.
Governing Law and Rules for Arbitration: Your Account involves interstate
commerce and this provision shall be governed by the Federal Arbitration Act
(“FAA”). The arbitration shall be conducted, at the option of whoever files the

arbitration claim, by either the American Arbitration Association (“AAA”) or
the National Arbitration Forum (“NAF”) in accordance with their procedures
in effect when the claim is filed. For a copy of their procedures, to file a claim
or for other information, contact AAA at 335 Madison Ave., Floor 10, New
York, NY 10017-5905, www.adr.org (phone 1-800-778-7879) or NAF at PO Box
50191, Minneapolis, MN 55405 (phone 1-800-474-2371). No other arbitration
forum will be permitted, except as agreed to pursuant to either the Effect of
Agreement section or a writing signed by both parties. Unless consented to by
all parties, no arbitration may be administered by any administrator that has
any formal or informal policy, rule or procedure that is inconsistent with or
purports to override the terms of this section.
Fees and Cost of Arbitration: At your written request, we will advance any
arbitration filing, administration and hearing fees which you would be required
to pay to pursue a claim or dispute as a result of our electing to arbitrate that
claim or dispute. Send requests to CommunityAmerica Credit Union, c/o Credit
Card Department, PO Box 15950, Lenexa, KS 66285-5950. The arbitrator will
decide who will ultimately be responsible for paying those fees. You will only be
responsible for paying or reimbursing our arbitration filing, administrative or
hearing fees to the extent you would have been responsible for paying attorneys’
fees and court or other collection costs had the action proceeded in court. In no
event will you be required to pay any fees or costs incurred by us in connection
with an arbitration proceeding where such a payment or reimbursement is
prohibited by applicable law.
Hearings and Decisions: Any arbitration hearing will take place in the
federal judicial district where you reside. The arbitrator shall follow applicable
substantive law to the extent consistent with the FAA and applicable statutes
of limitations and shall honor claims of privilege recognized at law and shall
be authorized to award all remedies permitted by the substantive laws that
would apply if the action were pending in court. If requested by any party,
the arbitrator shall write an opinion containing the reasons for the award. The
arbitrator’s decision will be final and binding except for any appeal rights under
the FAA and except that if the amount in controversy exceeds $100,000, any
party may appeal the award within 30 days to a three-arbitrator panel which
shall review the award de novo. Unless applicable law provides otherwise,
the appealing party will pay the cost of the appeal, regardless of its outcome.
However, we will consider in good faith any reasonable request for us to
bear the fees charged by the arbitration administrator and the arbitrators in
connection with the appeal. Judgment upon any award by the arbitrator may be
enforced in any court having jurisdiction.
Other Beneficiaries of the Arbitration Provisions: Our rights and
obligations under this arbitration provision shall inure to the benefit of and be
binding upon our credit union service organizations, subsidiaries, affiliates,
predecessors, successors, assigns, as well as the officers, directors and
employees of each of these entities, and will also inure to the benefit of any
third party named as a co-defendant with us or with any of the foregoing in a
claim which is subject to this arbitration provision. Your rights and obligations
under this arbitration provision shall inure to the benefit of and be binding upon
all persons contractually liable under this Agreement, and all authorized users
of the Account.
Survival of this Provision: The arbitration provision shall survive
termination of your Account as well as voluntary payment in full by you, any
legal proceedings by us to collect a debt owed by you, any bankruptcy by you
and any sale by us of your Account.
Right to Reject Arbitration: You may reject the Arbitration of Disputes
section by providing us a notice of rejection within 30 days after receiving
a Card at the following address: CommunityAmerica Credit Union, c/o Credit
Card Department, PO Box 15950, Lenexa, KS 66285-5950. Your rejection
notice must include your name, address, telephone number, Account number,
and signature, and must not be sent with any other correspondence. Calling
us to indicate that you reject the Arbitration of Disputes section or sending a
rejection notice in a manner or format that does not comply with all applicable
requirements is insufficient notice. In order to process your notice, we require
that the notice be provided by you directly and not through a third party.
Rejection of arbitration will not affect your other rights or responsibilities
under this Agreement or your obligation to arbitrate disputes under any other

account as to which you and we have agreed to arbitrate disputes. If you do
not send a rejection notice, you will be obligated by the Arbitration of Disputes
section with respect to this and any prior account you have had with us, even if
you have previously sent a rejection notice with respect to that prior account.
YOUR BILLING RIGHTS. Keep this Notice for Future Use.
This notice tells you about your rights and our responsibilities under the Fair
Credit Billing Act.
• What to do if you find a mistake on your statement
If you think there is an error on your Statement, write to us at:
CommunityAmerica Credit Union Customer Service: PO Box 31112, Tampa,
Fl 33631-3112
In your letter, give us the following information:
- Account information: Your name and account number.
- Dollar amount: The dollar amount of the suspected error.
- Description of problem: If you think there is an error on your bill, describe
what you believe is wrong and why you believe it is a mistake.
You must contact us:
- Within 60 days after the error appeared on your statement.
- At least 3 business days before an automated payment is scheduled, if you
want to stop payment on the amount you think is wrong.
You must notify us of any potential errors in writing. You may call us, but if
you do we are not required to investigate any potential errors and you may
have to pay the amount in question.
• What will happen after we receive your letter:
When we receive your letter, we must do two things:
1. Within 30 days of receiving your letter, we must tell you that we received
your letter. We will also tell you if we have already corrected the error.
2. Within 90 days of receiving your letter, we must either correct the error
or explain to you why we believe the bill is correct.
• While we investigate whether or not there has been an error:
- We cannot try to collect the amount in question, or report you as delinquent
on that amount.
- The charge in question may remain on your statement, and we may
continue to charge you interest on that amount.
- While you do not have to pay the amount in question, you are responsible
for the remainder of your balance.
- We can apply any unpaid amount against your credit limit.
• After we finish our investigation, one of two things will happen:
- If we made a mistake: You will not have to pay the amount in question or
any interest or other fees related to that amount.
- If we do not believe there was a mistake: You will have to pay the amount
in question, along with applicable interest and fees. We will send you a
statement of the amount you owe and the date payment is due. We may
then report you as delinquent if you do not pay the amount we think you
owe.
If you receive our explanation but still believe your bill is wrong, you must write
to us within 10 days telling us that you still refuse to pay. If you do so, we
cannot report you as delinquent without also reporting that you are questioning
your bill. We must tell you the name of anyone to whom we reported you as
delinquent, and we must let those organizations know when the matter has been
settled between us.
If we do not follow all of the rules above, you do not have to pay the first $50 of
the amount you question even if your bill is correct.
Your Rights If You Are Dissatisfied With Your Credit Card Purchases
If you are dissatisfied with the goods or services that you have purchased with
your credit card, and you have tried in good faith to correct the problem with
the merchant, you may have the right not to pay the remaining amount due on

the purchase.
To use this right, all of the following must be true:
1. The purchase must have been made in your home state or within 100 miles of
your current mailing address, and the purchase price must have been more
than $50. (Note: Neither of these are necessary if your purchase was based
on an advertisement we mailed to you, or if we own the company that sold
you the goods or services.)
2. You must have used your credit card for the purchase. Purchases made with
cash advances from an ATM or with a check that accesses your credit card
account do not qualify.
3. You must have not yet have fully paid for the purchase.
If all of the criteria above are met and you are still dissatisfied with the
purchase, contact us in writing at:
Customer Service, PO Box 31112, Tampa, FL 33631-3112
While we investigate, the same rules apply to the disputed amount as discussed
above. After we finish our investigation, we will tell you our decision. At that
point, if we think you owe an amount and you do not pay, we may report you
as delinquent.
THIS CONTRACT CONTAINS A BINDING ARBITRATION PROVISION WHICH
MAY BE ENFORCED BY THE PARTIES.

Revised 4/2012

